*

1a

i ,

Filed 12/3/20 Ouyang v. Achem Industry America, Inc. CA2/4

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for
publication or ordered published for purposes of rule 8.1115.______________ _______ _________________________

IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR

LIN OUYANG
Plaintiff and Appellant,

B290915
(Los Angeles County
Super. Ct. No. BC556293)

v.
ACHEM INDUSTRY AMERICA,
INC.,
Defendant and Respondent.

APPEAL from a judgment of the Superior Court of Los
Angeles County, Richard L. Fruin, Jr., Judge. Affirmed.
Lin Ouyang, in pro. per., for Plaintiff and Appellant.
Law Office of Ray Hsu & Associates, Ray Hsu and May
T. To, for Defendant and Respondent.

Appendix A. Decision of California Court of Appeal-B290915

2a

INTRODUCTION
This appeal is from the second of two lawsuits filed by
appellant Ouyang against her former employer, respondent
Achem Industry America, Inc. (Achem). Ouyang’s first suit,
based on actions taken while she was employed by Achem,
was tried to a jury and resulted in a defense verdict and an
award of costs to Achem. In this, her second suit, she
alleged six causes of action relating to Achem’s alleged
failure to increase her hourly wage, reimburse her for
certain expenses she incurred in obtaining a green card, or
pay for her health insurance while she was on unpaid leave.
Her first four causes of action were disposed of when the
trial court sustained Achem’s demurrer without leave to
amend and thereafter granted Achem’s motion for judgment
on the pleadings when Ouyang reasserted the same causes
of action. Her fifth and sixth causes of action were disposed
of following this court’s directive to the trial court to grant
summary judgment to Achem on the basis of preemption
under the Employee Retirement Income Security Act
(ERISA).
On appeal, Ouyang contends the trial court erred in
sustaining the demurrer without leave to amend -- and
thereafter granting Achem judgment on the pleadings -- as
to her first three causes of action.1 Additionally, Ouyang
contends the trial court erred in denying her motion for
1
Ouyang asserts no error regarding the sustaining of the
demurrer or the grant of judgment on the pleadings as to her
fourth cause of action.

2

Appendix A. Decision of California Court of Appeal-B290915

3a

sanctions, based on Achem’s filing a motion for leave to file a
cross-complaint asserting offset in the amount of costs
awarded Achem in the first lawsuit, and in denying her
motion to strike the offset defense. She further assigns error
to the trial court’s failure to rule on her objections to
Achem’s proposed judgment or to issue a statement of
decision before issuing its final judgment. Finally, Ouyang
urges us to revisit our prior decision ordering the trial court
to grant summary judgment as to her fifth and sixth causes
of action. Finding no error, we affirm.

STATEMENT OF RELEVANT FACTS
A.
The First Action
In August 2011, Ouyang filed a complaint against
Achem alleging 11 causes of action relating to Labor Code
violations, intentional infliction of emotional distress, breach
of contract, fraud, and unfair business practices (the First
Action). In October 2014, a jury returned a verdict against
Ouyang on all causes of action. Ouyang was further ordered
to pay Achem $63,180.04 in costs. Ouyang appealed, and we
affirmed in Ouyang v. Achem Indus. Am. (Jun. 28, 2019,
B261929) [nonpub. opn.]. In September 2019, our Supreme
Court denied review and we issued a remittitur. In April
2020, the United States Supreme Court denied certiorari.

3

Appendix A. Decision of California Court of Appeal-13290915

4a

B.

The Current Action

The Original Complaint
1.
On August 29, 2014, Ouyang filed a verified complaint
against Achem alleging six causes of action: (1) fraud; (2)
national origin discrimination under the Fair Employment
and Housing Act (FEHA); (3) wrongful constructive
termination; (4) violation of Labor Code sections 2926, 2927,
223, 201, and 202; (5) breach of contract; and (6) “preventing
subsequent employment by misrepresentation.” In January
2015, Achem demurred to Ouyang’s complaint arguing,
among other things, that the statute of limitations barred
the first four causes of action. Achem also argued the
constructive termination cause of action failed to state facts
sufficient to constitute a cause of action. The court
sustained Achem’s demurrer but granted Ouyang leave to
amend.
2.

The First Amended Complaint
In March 2015, Ouyang filed a verified first amended
complaint. The first five causes of action remained the
same, but the sixth was replaced by “fraud,” alleging Achem
falsely promised to pay for Ouyang’s health insurance while
she was on unpaid leave. As relevant to this appeal, she
alleged:
-Ouyang worked for Achem from December 2002
to November 2013. In 2005 she sought a higher­
paying job, but Achem induced her to stay by

4

Appendix A. Decision of California Court of Appeal-B290915

5a

promising her a wage increase after she
received a green card. Achem asked her to
prepay the attorneys’ fees and costs needed to
apply for a green card, but promised Achem
would reimburse her for these expenses after
she obtained it.
-In July 2008, when she was about to receive her
green card, Ouyang asked Achem’s president to
pay her the promised wage, but he stated it was
“a difficult time” and did not. When she asked a
few months later to be reimbursed for her
attorneys’ fees, he told her it was not the “right
time” to do so. At the time, Achem’s parent
company had been delisted from the stock
exchange.
-In September 2009, she again asked Achem’s
president to increase her wage and reimburse
her for the attorneys’ fees; he again told her to
wait, because someone new would be “tak[ing]
over” Achem in a few months. Ouyang renewed
the request in early 2010 and was told to ask
the general manager. The general manager
stated he no longer had the authority to approve
the reimbursement, but did not say that Achem
did not intend to pay, and Ouyang alleged she
believed this meant she needed to speak with
new management to be reimbursed.
-In September 2010, after Achem’s parent
company had been relisted on the stock
exchange, Ouyang insisted Achem pay her the
promised wage and threatened to sue. In

5

Appendix A. Decision of California Court of Appeal-13290915

6a

response, Achem accused Ouyang of not doing
her job, and threatened to revoke her green card
and to fire her if she sued. Achem’s general
manager also told her “some talents were
willing to take low paid job due [to] their
immigration status.” Ouyang, who was from
China, was aware that similarly situated
employees from Taiwan were being paid the
prevailing wage.
-Ouyang protested this discrimination, and
Achem responded by cutting her workload
significantly and harassing her, causing her to
be injured both mentally and physically, and
necessitating a two-week sick leave.
-In November 2010, Ouyang filed a workers’
compensation claim. In January 2011, she
received her first negative performance review
and three days later Achem placed her on
unpaid leave.
-In February 2014, Ouyang filed a complaint
with the Department of Fair Employment and
Housing for national origin discrimination and
obtained a right-to-sue letter.
Achem demurred again, arguing that several of
Ouyang’s causes of action were time-barred. In sustaining
the demurrer to the first four causes of action without leave
to amend, the court found Ouyang “was on inquiry notice by
early 2010 that Achem did not intend to reimburse her for
the attorneys’ fees she spent on her immigration petition”

6

Appendix A. Decision of California Court of Appeal-13290915

7a

and “the last illegal act’ alleged [relating to her FEHA cause
of action] occurred in January 2011.” The court additionally
noted the third cause of action for constructive termination
failed to state facts sufficient to constitute a cause of action
because Ouyang failed to allege facts demonstrating her
working conditions “were so intolerable as to require a
reasonable person to resign.” The court also sustained
Achem’s demurrer to the fifth and sixth causes of action
relating to Ouyang’s claim that Achem had promised to pay
for her health insurance while she was on unpaid leave, but
granted Ouyang leave to amend.
3.

The Operative Second Amended
Complaint
In June 2015, Ouyang filed a verified second amended
complaint, containing the first four causes of action to which
Achem had already successfully demurred, and two causes of
action for fraud and breach of contract relating to Achem’s
alleged promise to pay for her health insurance after she was
placed on unpaid leave. Ouyang’s fifth cause of action for
fraud sought monetary damages to reimburse her for
medical expenses she incurred, as well as compensation for
“sever[e] emotional distress.” Her sixth cause of action for
breach of contract sought monetary damages for the same
out-of-pocket medical expenses.
In answering the second amended complaint, Achem
noted that “[b]ecause the Court has sustained Defendant’s
Demurrers to the First, Second, Third and Fourth Causes of

7

Appendix A. Decision of California Court of Appeal-13290915

8a

Action, which has the same effect as the granting of a motion
for judgment on the pleadings as to these causes of action,
Defendant is not required to respond to the allegations in the
First, Second, Third and Fourth Causes of Action of the”
second amended complaint. Achem further asserted ERISA
preemption as an affirmative defense to the fifth and sixth
causes of action.
4.

Achem Moves for Judgment on the
Pleadings and Leave to File a CrossComplaint; Ouyang Moves for
Sanctions
In September 2016, Achem moved for judgment on the
pleadings on the first five causes of action. It also moved for
leave to file a cross-complaint to assert an offset claim
against Ouyang, asking that any amount awarded to
Ouyang in the current action be offset by the judgment it
had obtained in the First Action. In response, Ouyang
moved for sanctions under Code of Civil Procedure section
128.5, arguing that both motions were frivolous. Of
relevance to this appeal, Ouyang argued Achem’s motion for
leave to file a cross-complaint was frivolous because any
amount awarded to her in the instant action would be
exempt from collection, and therefore Achem’s request to
offset that amount constituted an illegal request to
circumvent the exemption statutes. Ouyang also claimed to
be indigent, and asserted she had received a waiver of filing
fees.

8

Appendix A. Decision of California Court of Appeal-B290915

9a

In October 2016, the court granted Achem’s motion for
judgment on the pleadings as to the first four causes of
action, but denied it as to the fifth cause of action. It also
granted Achem’s motion to file a cross-complaint. Achem
filed its cross-complaint on October 24, 2016, but the court
struck it three days later. The court then reversed its earlier
ruling and denied Achem’s motion to file a cross-complaint.
In the order denying Ouyang’s motion for sanctions, the
court found that while Achem’s cross-complaint was
unnecessary -- noting the proper way to obtain an offset was
to file an answer pleading offset - “it was not filed entirely
without purpose.” The court additionally pointed out that it
had initially granted Achem’s motion for leave to file a cross­
complaint, and it would be unjust to sanction Achem for
filing a motion the court had granted. With the court’s
permission, Achem filed an amended answer, asserting both
ERISA preemption and offset as affirmative defenses. The
court denied Ouyang’s request to strike the offset affirmative
defense.
5.
Motion for Summary Judgment
In February 2017, Achem moved for summary
judgment on Ouyang’s second amended complaint, arguing
that: (a) its health insurance plan constituted an Employee
Welfare Benefit Plan governed by ERISA; and (b) Ouyang’s
fifth and sixth causes of action - the only causes of action
remaining - were related to that plan, and therefore

9

Appendix A. Decision of California Court of Appeal-13290915

10a

preempted by ERISA. In May 2017, the court denied the
motion.
Achem petitioned this court for a writ of mandate and
following briefing by both parties, we issued an opinion
finding both causes of action preempted by ERISA and
directing the trial court to vacate its order denying Achem’s
motion for summary judgment and enter a new order
granting it. We also awarded Achem its costs. After we
denied Ouyang’s petition for rehearing, and our Supreme
Court denied her petition for review, we issued a remittitur
in December 2017.
6.

Judgment
Achem submitted a proposed judgment in May 2018
and Ouyang objected. Among other arguments, she asserted
that by finding her fraud and breach of contract causes of
action preempted by ERISA, we “necessarily determined
that plaintiff had stated facts creating an estoppel to set up
the defense that Achem’s false representation of plaintiffs
employment status, relied on by the plaintiff, induced the
belated filing of the wrongful termination and discrimination
causes of action.” She further argued the court “should
exercise its equity power to bar Achem from asserting [a]
statute of limitation[s] defense [citation], because Achem
admitted in its verified answer that Achem represented to
plaintiff that she was expected to return to Achem while she
was on unpaid leave and admitted plaintiff believed that she
was still employed by Achem as of November 2013.” Ouyang

10

Appendix A. Decision of California Court of Appeal-13290915

11a

also requested the court “issue a statement of decision
explaining the factual and legal basis for its decision.”
The court did not issue a statement of decision or
explicitly rule on Ouyang’s objections. Instead, in June
2018, after correcting a typographical error, the court signed
the proposed judgment Achem had submitted, entering
judgment in favor of Achem and against Ouyang. Achem
was awarded $945 in costs for the writ of mandate
proceedings, as well as costs of suit for the trial court
proceedings. Ouyang timely appealed.
DISCUSSION
A.

The Court Did Not Err in Sustaining the
Demurrer Without Leave to Amend
As noted, the court sustained Achem’s demurrer to
Ouyang’s first four causes of action without leave to amend,
finding the causes of action were barred by the statute of
limitations, failed to state a claim, or both. Ouyang
challenges those rulings as to the first three causes of action
only. “We review a ruling sustaining a demurrer de novo,
exercising independent judgment as to whether the
complaint states a cause of action as a matter of law.
[Citation.] ‘We affirm the judgment if it is correct on any
ground stated in the demurrer, regardless of the trial court’s
stated reasons.’” (Palm Springs Villas II Homeowners Assn.,
Inc. v. Parth (2016) 248 Cal.App.4th 268, 289.) When a
demurrer is sustained without leave to amend, “we decide

11

Appendix A. Decision of California Court of Appeal-13290915

12a

whether there is a reasonable possibility that the defect can
be cured by amendment: if it can be, the trial court has
abused its discretion and we reverse; if not, there has been
no abuse of discretion and we affirm. [Citations.] The
burden of proving such reasonable possibility is squarely on
the plaintiff.” (.Blank u. Kirwan (1985) 39 Cal.3d 311, 318.)
First Cause of Action for Fraud
1.
In Ouyang’s first cause of action, she alleged that
Achem falsely promised to reimburse her for the attorneys’
fees she incurred in obtaining a green card, and to increase
her hourly wage once she obtained a green card. However,
she alleged that she requested this reimbursement and wage
increase several times, only to be denied each time.
Specifically, when she was about to receive her green card in
July 2008, she asked Achem to increase her hourly wage;
Achem’s president responded that this was a “difficult time”
and did not increase her wage. When she asked a few
months later to be reimbursed for her attorneys’ fees, he told
her this was not the right time. A year later, in September
2009, she again asked Achem’s president to increase her
wage and reimburse her for the attorneys’ fees; he again told
her to wait, because someone new would be “tak[ing] over”
Achem in a few months. Ouyang renewed the request in
early 2010 and was told to ask the general manager. The
general manager stated he no longer had the authority to
approve the reimbursement, but did not say that Achem did
not intend to pay, and Ouyang alleged she believed this

12

Appendix A. Decision of California Court of Appeal-13290915

13a

meant she needed to speak with new management to be
reimbursed.
In sustaining the demurrer to this cause of action, the
court found Ouyang “was on inquiry notice by early 2010
that Achem did not intend to reimburse her for the
attorneys’ fees she spent on her immigration petition
Accordingly, her claim -- filed in August 2014 - was barred
by the statute of limitations.2 On appeal, Ouyang argues the
court erred because: (a) her fraud cause of action “relate[d]
back to a timely filed original complaint” in the First Action;
(b) Achem failed to allege it would be prejudiced by
permitting this cause of action; (c) she was not on inquiry
notice by early 2010; and (d) she could cure the defects of
this cause of action through amendment. We disagree.
First, “[t]he relation back doctrine allows a court to
deem an amended complaint filed at the time of an earlier
complaint if both complaints rest on the same general set of
facts, involve the same injury, and refer to the same
instrumentality.” (Esparza v. Safeway, Inc. (2019) 36
Cal.App.5th 42, 60.) But the “earlier complaint” must be
filed in the same action. Ouyang presents no authority
permitting a new complaint to “relate [] back” to a complaint
filed in a different action. When an appellant fails to provide
the appellate court with applicable case authority to support

2
The “‘statute of limitations for fraud is three years.’”
(.Britton v. Girardi (2015) 235 Cal.App.4th 721, 733.)

13

Appendix A. Decision of California Court of Appeal-13290915

14a

an argument, that argument is forfeited. (Ellenberger v.
Espinosa (1994) 30 Cal.App.4th 943, 948.)
Second, “no California decision requires a showing of
prejudice to enforce a statute of limitations.” (State Farm
Fire & Casualty Co. v. Superior Court (1989) 210 Cal.App.3d
604, 612.) Ouyang presents no authority to the contrary.
Third, Ouyang argues the court erred in finding she
was on inquiry notice in early 2010 because she alleged the
general manager stated he had no authority to approve
reimbursement, not that Achem was refusing to reimburse
her. Ouyang misunderstands “inquiry notice.” “Inquiry
notice” does not occur when a plaintiff knows she has been
injured. “Inquiry notice” occurs when a person has «<(<(« notice
or information of circumstances to put a reasonable person
on inquiry
that she has suffered an injury. (Norgart v.
Upjohn Co. (1999) 21 Cal.4th 383, 398.) “[T]he limitations
period begins to run when the circumstances are sufficient to
raise a suspicion of wrongdoing, i.e., when a plaintiff has
notice or information of circumstances sufficient to put a
reasonable person on inquiry.” (Mills v. Forestex Co. (2003)
108 Cal.App.4th 625, 648.) Here, Ouyang requested Achem
increase her hourly wage and reimburse her for attorneys’
fees three times in three years. Each time she was put off;
Achem never provided a date when the increase or
reimbursement would occur, or informed Ouyang of some
procedure she could follow to get those expenses reimbursed.
We agree with the trial court that a reasonable person would
have been on inquiry by early 2010.

14

Appendix A. Decision of California Court of Appeal-B290915

15a

Finally, Ouyang argues she could amend this cause of
action by alleging Achem falsely promised her that she
would be reimbursed to “avoid liability of paying required
wage . . .
Further allegations that Achem intentionally
deceived her would not fix the fundamental defect that
Achem’s actions would have caused a reasonable person to
be on inquiry by early 2010.
Second Cause of Action for FEHA
Discrimination
Ouyang’s second cause of action alleged Achem
discriminated against her both because she was from China,
and because she opposed Achem’s allegedly illegal practices.
The court sustained Achem’s demurrer to this cause of action
finding “the ‘last illegal act’ alleged occurred in January
2011.” The statute of limitations for a FEHA claim was one
year when Achem’s demurrer was sustained. (Former Gov.
Code, § 12960, subd. (d), effective January 1, 2006 [“No
complaint may be filed after the expiration of one year from
the date upon which the alleged unlawful practice ...
occurred”].)
Ouyang argues her FEHA cause of action “is not barred
by the statute of limitation[s] under the delayed discovery
rule and the doctrine of equitable estoppel, because . . .
Richard Du (‘Du’) fraudulently concealed the fact that he
refused to increase Ouyang’s wage because she was from
China, [and] he misrepresented to Ouyang that the reason
was that he needed to investigate Ouyang’s job duties.”
2.

15

Appendix A. Decision of California Court of Appeal-B290915

16a

Ouyang claims she did not learn the real reason she was
denied a wage increase until Du testified at trial in the First
Action on October 10, 2014, that he already knew her job
duties. She also argues that this testimony, coupled with
the alleged lie that he needed to investigate her job duties,
estopped Achem from asserting the statute of limitations.
First, the discovery rule does not apply to a FEHA
cause of action. (Williams v. City of Belvedere (1999) 72
Cal.App.4th 84, 88-89, 92-93 [though plaintiff did not
discover discriminatory reason behind decision not to hire
him until it was too late to timely file an administrative
claim, his FEHA claim was still time-barred under
Government Code section 12960].)
Second, even if the discovery rule applied, Ouyang
herself alleged that in September 2010 she asked Du for the
“prevailing wage” and was told that “some talents were
willing to accept low paid job due to their immigration
status”; she further acknowledged being aware that
similarly situated employees from Taiwan were paid the
prevailing wage while she was not. She therefore “protested
discrimination” to Du and threatened to sue for wages owed.
Moreover, Ouyang’s initial verified complaint filed on
August 29, 2014, contained a cause of action for “National
Origin Discrimination, Hostile Work Environment
Harassment and Retaliation — FEHA.” The allegations in
the verified original complaint for this cause of action were
substantively identical to those in the verified second
amended complaint. Her claim that she did not discover she

16

Appendix A. Decision of California Court of Appeal-B290915

17a

suffered national origin discrimination until October 10,
2014 -- six weeks after she filed the original verified
complaint claiming national origin discrimination -- is belied
by the record.
Third, even if Ouyang could assert estoppel in the face
of the express language of Williams and Government Code
section 12960 -- a proposition for which Ouyang presents no
authority - the allegations in her second amended complaint
did not demonstrate estoppel. If a defendant acts in such a
way to wrongfully induce a plaintiff to believe her claim will
be amicably resolved and causes her not to file suit, this may
create an estoppel against pleading the statute of
limitations. (See, e.g., Industrial Indem. Co. v. Industrial
Acc. Com. (1953) 115 Cal.App.2d 684, 690.) Here, however,
Ouyang alleged she protested discrimination and threatened
to sue in September 2010. She contended Achem responded
by accusing her of not performing her job duties, threatening
to revoke her green card, telling her she would be fired if she
sued, and subjecting her to other harassment. Achem did
not act in a manner that could have led Ouyang to believe
her claims would be amicably resolved.
Finally, Ouyang argues she could cure the defect by
amending to allege she did not discover the impermissible
bias until October 2014. Such an amendment would be
futile, both because the discovery rule does not apply, and
because this would be a sham pleading: by her own
admission, Ouyang “protested discrimination” in 2010, and
alleged it as a cause of action in August 2014. ‘“A court has

17

Appendix A. Decision of California Court of Appeal-13290915

18a

inherent power by summary means to prevent an abuse of
its process and peremptorily to dispose of sham causes of
action.”’ (Amid v. Hawthorne Community Medical Group,
Inc. (1989) 212 Cal.App.3d 1383, 1391.)
3.

Third Cause of Action for Wrongful
Constructive Termination
Ouyang alleged in her third cause of action that Achem
harassed, retaliated against, and discriminated against her,
forcing her to resign in November 2013. “The idea of
‘constructive termination’ is that working conditions are
made so intolerable by the employer that the wronged
employee is forced to quit.” {Lee v. Bank of America (1994)
27 Cal.App.4th 197, 213.) The court sustained Achem’s
demurrer, finding both that the cause of action was timebarred, and that Ouyang had failed to allege facts
demonstrating that her work conditions “were so intolerable
as to require a reasonable person to resign.”
In her opening brief, Ouyang does not contend the
court erred in finding that her cause of action failed to state
facts constituting a cause of action because she failed to
state facts demonstrating intolerable working conditions.
She has thus forfeited any challenge to the court’s
determination of that issue. {Wall Street Network, Ltd. v.
New York Times Co. (2008) 164 Cal.App.4th 1171, 1177
[affirming summary adjudication where appellants
challenged only one of multiple grounds on which
adjudication was granted: “Generally, appellants forfeit or

18

Appendix A. Decision of California Court of Appeal-B290915

19a

abandon contentions of error regarding the dismissal of a
cause of action by failing to raise or address the contentions
in their briefs on appeal”].) We therefore need not address
her argument that the court erred in finding this cause of
action time-barred. (See, e.g., Excelsior College v. Board of
Registered Nursing (2006) 136 Cal.App.4th 1218, 1237, fn. 3
[“Since we uphold the trial court’s ruling on the first basis
for demurrer, we need not address this second argument”].)
In Ouyang’s reply brief, she briefly argues that
“Achem’s illegal request to conceal material accounting
misstatement when the headquarter[s] was about to issue
corporate bonds to public and Achem’s discriminatory
practice of refusing wage increase because of national origin”
were allegations of intolerable conditions. “‘“[P]oints raised
in the reply brief for the first time will not be considered,
unless good reason is shown for failure to present them
before.’”” {In re Marriage of Khera & Sameer (2012) 206
Cal.App.4th 1467, 1478.) ‘“Obvious reasons of fairness
militate against consideration of an issue raised initially in
the reply brief of an appellant.’” {Id. at 1477.) Ouyang
shows no good reason for failing to present these points in
her opening brief. Even were we to consider them, we would
find that these allegedly intolerable conditions occurred
prior to her unpaid leave in January 2011, and therefore
could not have been the cause of her resignation in
November 2013.

19

Appendix A. Decision of California Court of Appeal-13290915

20a

B.
Motion for Judgment on the Pleadings
Ouyang argues the court erred in granting Achem’s
motion for judgment on the pleadings for the same reason it
erred in granting Achem’s demurrer. We find the court did
not err in granting the motion for judgment on the pleadings
for the same reason it did not err in granting the demurrer.
C.

Trial Court’s Failure to Rule on Estoppel
Objection
After Achem submitted a proposed judgment, Ouyang
objected on the ground that Achem was estopped from
asserting a statute of limitations defense. In June 2018, the
court entered Achem’s proposed judgment without
substantive change, and without explicitly ruling on
Ouyang’s objections.
Ouyang argues the trial court erred by failing to rule
on her estoppel objection to Achem’s proposed judgment. We
interpret the court’s entry of judgment to be an implicit
overruling of Ouyang’s objections. Ouyang cites no authority
requiring a court to issue an explicit ruling on a party’s
objections to a judgment. In any case, as discussed above,
there is no merit to her estoppel objection.
D.

Court’s Failure to Issue a Statement of
Decision
In Ouyang’s objections to Achem’s proposed judgment,
she requested the trial court “issue a statement of decision
explaining the factual and legal basis for its decision.” The
court issued no statement of decision. Ouyang argues she

20

Appendix A. Decision of California Court of Appeal-13290915

21a

was prejudiced by the failure to issue a statement of decision
because, without it, she cannot show how the trial court
erred in entering judgment.
Code of Civil Procedure section 632 provides in
pertinent part: “In superior courts, upon the trial of a
question of fact by the court, written findings of fact and
conclusions of law shall not be required. The court shall
issue a statement of decision explaining the factual and legal
basis for its decision as to each of the principal controverted
issues at trial upon the request of any party appearing at the
trial. . . . The request for a statement of decision shall
specify those controverted issues as to which the party is
requesting a statement of decision.”
Because there was no trial of fact, no statement of
decision was required. (See Wadler v. Justice Court of
Merced Judicial Dist. (1956) 144 Cal.App.2d 739, 744
[statement of decision under Code of Civil Procedure section
632 unnecessary “where no issue of fact is decided”];
Rebmann v. Rohde (2011) 196 Cal.App.4th 1283, 1294 [“By
using the word ‘trial’ in the statute, the Legislature intended
that a statement of decision is available only when the court
conducts a trial”].) Further, Ouyang’s request for a
statement of decision did not specify the controverted issues
as to which she was requesting a statement of decision.
Ouyang cites no authority requiring the court to issue a
statement of decision in such a situation.
Moreover, our review of the court’s sustaining of a
demurrer is de novo. Even had Ouyang been entitled to a

21

Appendix A. Decision of California Court of Appeal-B290915

22a

statement of decision, she could show no prejudice from the
lack of one, and thus would not be entitled to reversal. (F.P.
v. Monier (2017) 3 Cal.5th 1099, 1108 [“a trial court’s error
in failing to issue a requested statement of decision is not
reversible per se, but is subject to harmless error review”].)
E.

Sanctions Under Code of Civil Procedure
Section 128.5
“A trial court may order a party ... to pay the
reasonable expenses, including attorney’s fees, incurred by
another party as a result of actions or tactics, made in bad
faith, that are frivolous or solely intended to cause
unnecessary delay.” (Code Civ. Proc., § 128.5, subd. (a).)
“‘Frivolous’ means totally and completely without merit or
for the sole purpose of harassing an opposing party.” (Id. at
§ 128.5, subd. (b)(2).) “On appeal from a denial of a request
for sanctions pursuant to Code of Civil Procedure section
128.5 we presume the order of the trial court is correct, and
the standard of review is abuse of discretion.” (Kurinij v.
Hanna & Morton (1997) 55 Cal.App.4th 853, 867.)
Where
the issue on appeal is whether the trial court has abused its
discretion, the showing necessary to reverse the trial court is
insufficient if it presents facts which merely afford an
opportunity for a different opinion: ‘An appellate tribunal is
neither authorized nor warranted in substituting its
judgment for the judgment of the trial judge. To be entitled
to relief on appeal from the result of an alleged abuse of
discretion it must clearly appear that the injury resulting

22

Appendix A. Decision of California Court of Appeal-B290915

23a

from such a wrong is sufficiently grave to amount to a
manifest miscarriage of justice .... >>>>>> (Ibid.)
Ouyang filed a motion for sanctions under Code of Civil
Procedure section 128.5, alleging Achem’s motion for leave to
file a cross-complaint was frivolous. The court denied the
motion, finding that while the cross-complaint was
unnecessary, “it was not filed entirely without purpose.” The
court additionally pointed out that it had granted the motion
for leave to file the cross-complaint, and it would be wrong to
sanction Achem for a motion the court had granted. On
appeal, Ouyang argues the court abused its discretion in
denying her sanctions motion because the clear intent of
Achem’s motion was to obtain Ouyang’s “exempt property,”
which was “totally and completely without merit. . . .”
When Achem moved to file a cross-complaint, the court
had already sustained a demurrer without leave to amend to
Ouyang’s first four causes of action, leaving only the fifth
and sixth causes of action. Code of Civil Procedure section
704.140 provides that “an award of damages or a settlement
arising out of personal injury is exempt to the extent
necessary for the support of the judgment debtor and the
spouse and dependents of the judgment debtor.” (Code Civ.
Proc., § 704.140, subd. (b).) Ouyang’s fifth cause of action for
fraud sought monetary damages to reimburse her for
medical expenses she incurred due to Achem’s alleged
misrepresentation that it would pay for her medical
insurance, as well as compensation for “sever[e] emotional
distress.” Her sixth cause of action for breach of contract

23

Appendix A. Decision of California Court of Appeal-B290915

24a

sought monetary damages for the same out-of-pocket
medical expenses. While severe emotional distress may
constitute personal injury (see Sylvester v. Hafif (In re
Sylvester) (9th Cir. BAP 1998) 220 B.R. 89, 92), Ouyang
presents no authority that a claim for expenses is one arising
out of “personal injury.” Further, though Ouyang claimed to
be indigent and had received a fee waiver, she did not
demonstrate how any amount she would receive for severe
emotional distress would be necessary to support her. In
short, she did not show the motion was without merit, much
less frivolous. Moreover, as the court itself observed, it had
granted Achem’s motion. The court’s sensible decision to
decline to sanction Achem for filing a motion the court had
expressly granted was not “a manifest miscarriage of
justice.”
F.
Offset
Ouyang argues the court erred in denying her motion
to strike Achem’s affirmative defense for offset, because she
claims any award received in this lawsuit would be exempt
from collection. As explained above, it is far from clear that
Achem would not be entitled to an offset. In any case, given
that her entire action has been disposed of, this argument is
moot.
G. Reconsideration of Our Previous Order
In August 2017, in Achem Indus. Am., Inc. v. Superior
Court (Aug. 16, 2017, B282801) [nonpub. opn.], we ordered
the trial court to grant Achem’s motion for summary

24

Appendix A. Decision of California Court of Appeal-13290915

25a

judgment on Ouyang’s fifth and sixth causes of action,
because they were preempted by ERISA. We also awarded
Achem its costs on appeal. Ouyang argues that “in the
interest of justice,” we should revisit both our orders that the
trial court grant summary judgment, and the award of costs.
Ouyang petitioned for rehearing of our opinion when it was
initially issued, and we denied her petition. She then
petitioned our Supreme Court for review, and it denied her
petition. Our previous orders are final.

25

Appendix A. Decision of California Court of Appeal-13290915

26a

DISPOSITION
The judgment is affirmed. Respondent is awarded its
costs on appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
MANELLA, P. J.
We concur:

COLLINS, J.

CURREY, J.

26

Appendix A. Decision of California Court of Appeal-13290915

27a

Filed 8/16/17 Achem Industry America v. Superior Court CA2/4

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not
certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion has not
been certified for publication or ordered published for purposes of rule 8.1115._____________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
ACHEM INDUSTRY AMERICA,
INC.,
Petitioner,

B282801
(Los Angeles County
Super. Ct. No. BC556293)

v.
THE SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent;
LIN OUYANG
Real Party in Interest.
ORIGINAL PROCEEDINGS in mandate. Richard L.
Fruin, Judge. Petition granted.
Law Offices of Ray Hsu and Ray Hsu for Petitioner.
No appearance for Respondent.
Lin Ouyang, in pro. per., for Real Party in Interest.

Appendix B. Decision of California Court of Appeal-B282801

28a

In the underlying action, real party in interest Lin
Ouyang asserted claims for fraud and breach of contract
against petitioner Achem Industry America, Inc. (Achem),
her former employer, alleging that Achem improperly
allowed her employment-based health insurance coverage to
lapse when she took a leave of absence from her employ­
ment. Achem filed a motion for summary judgment or
adjudication, contending the claims were preempted under
the Employment Retirement Income Security Act of 1974
(29 U.S.C. § 1001 et seq.) (ERISA). After the trial court
denied the motion, Achem sought relief from that ruling by
writ of mandate. We conclude there are no triable issues of
fact whether the claims are subject to ERISA preemption.
Accordingly, we grant the petition for writ of mandate.
FACTUAL AND PROCEDURAL BACKGROUND
In August 2014, Ouyang initiated the underlying
action. Her second amended complaint (SAC), filed June 11,
2015, contains claims for fraud, breach of contract, and
wrongful termination in violation of public policy, along with
claims under the California Fair Employment and Housing
Act (Gov. Code, § 12900 et seq.) and the Labor Code.
Pertinent here are the SAC’s claims for fraud (fifth cause of
action) and breach of contract (sixth cause of action), which
were based on allegations that after Ouyang began an
unpaid leave in January 2011, Achem improperly failed to
pay the premiums for her health insurance, which she
obtained through Achem’s group health insurance plan.

2

Appendix B. Decision of California Court of Appeal-B282801

29a

In October 2016, the trial court granted judgment on
the pleadings with respect to the SAC’s claims, with the
exception of the fraud and breach of contract claims
described above. In February 2017, Achem sought summary
judgment or adjudication on those remaining claims,
contending, inter alia, that they were subject to preemption
under ERISA. The trial court denied Achem’s motion in its
entirety, concluding that there were triable issues regarding
the application of ERISA preemption.
On May 30, 2017, Achem filed its petition for writ of
mandate or peremptory writ. We issued an alternative writ
of mandate and imposed a temporary stay.
DISCUSSION
Achem contends the trial court erred in denying
summary judgment. As explained below, we agree.
A. Standard of Review
“An order denying a motion for summary adjudication
may be reviewed by way of a petition for writ of mandate.
[Citation.] Where the trial court’s denial of a motion for
summary judgment will result in trial on non-actionable
claims, a writ of mandate will issue. [Citations.] Likewise,
a writ of mandate may issue to prevent trial of nonactionable claims after the erroneous denial of a motion for
summary adjudication, [t] Since a motion for summary
judgment or summary adjudication ‘involves pure matters of
law,’ we review a ruling on the motion de novo to determine

3

Appendix B. Decision of California Court of Appeal-B282801

30a

whether the moving and opposing papers show a triable
issue of material fact. [Citations.] Thus, the appellate court
need not defer to the trial court’s decision. “‘We are not
bound by the trial court’s stated reasons, if any, supporting
its ruling; we review the ruling, not its rationale.’”
[Citations.]” (Travelers Casualty & Surety Co. v. Superior
Court (1998) 63 Cal.App.4th 1440, 1450.)1
B. Governing Principles
“ERISA is a comprehensive federal law designed to
promote the interests of employees and their beneficiaries in
employee pension and benefit plans. [Citation.] As a part of
this integrated regulatory system, Congress enacted various
safeguards to preclude abuse and to secure the rights and
expectations that ERISA brought into being. [Citations.]
i

Ouyang asserted numerous objections to Achem’s
evidentiary showing. Because the trial court did not expressly
rule on the objections, we presume them to have been overruled.
{Reid v. Google, Inc. (2010) 50 Cal.4th 512, 534.) As Ouyang has
not resurrected her objections before us, we examine the trial
court’s rulings in light of the entire body of evidence submitted in
connection with Achem’s motion for summary judgment or
adjudication.
On a related matter, we note that the exhibits supporting
Achem’s petition include evidence not submitted to the trial court
in connection with Achem’s motion for summary judgment or
adjudication. We decline to examine that evidence, as our review
of a writ petition is limited to the record before the trial court.
(.Spaccia v. Superior Court (2012) 209 Cal.App.4th 93, 96, fn. 2 &
97.)

4

Appendix B. Decision of California Court of Appeal-B282801

31a

Prominent among these safeguards is an expansive
preemption provision, found at section 514 of ERISA (29
U.S.C. § 1144 . . . [citations].)” (Marshall v. Bankers Life &
Casualty Co. (1992) 2 Cal.4th 1045, 1050-1051 (Marshall).)
That provision “is conspicuous for its breadth, establishing
as an area of exclusive federal concern the subject of every
State law that ‘relates to’ an employee benefit plan governed
by ERISA. [Citation.]” (Id. at p. 1051.) The provision
encompasses “state law claims” -- that is, causes of action
predicated on state law - meeting the criteria for
preemption stated in the provision. (See Morris B. Silver
M.D., Inc., v. International Longshore & Warehouse etc.
(2016) 2 Cal.App.5th 793, 801 (Morris B. Silver M.D.).)
Ordinarily, “[t]he consequences of ERISA preemption are
significant for plaintiffs. ERISA limits plan participants
and beneficiaries ... to causes of action for recovery of policy
benefits only. [Citation.]” (Hollingshead v. Matsen (1995)
34 Cal.App.4th 525, 532 (Hollingshead))
Generally, section 514 of ERISA creates “an
affirmative defense to a plaintiffs state law cause of action
that entirely bars the claim; that is, the particular claim
involved cannot be pursued in either state or federal court.”
(Morris B. Silver M.D., supra, 2 Cal.App.5th at p. 799.) In
order to demonstrate that a claim is subject to ERISA
preemption, a defendant employer must show (1) that it
established ‘“an employee welfare benefit plan’” within the
meaning of ERISA, and (2) that the claim appropriately
relates to”’” the plan. (Hollingshead, supra, 34
UU(

5

Appendix B. Decision of California Court of Appeal-B282801

32a

Cal.App.4th at pp. 533, 539-540.) The defendant has the
burden of demonstrating the facts necessary to establish
ERISA preemption. {Marshall, supra, 2 Cal.4th at p. 1052.)
That defense need not be alleged in the answer, and may be
raised for the first time by a motion for summary judgment.
Under ERISA, the term “‘employee welfare benefit
plan’” means “any plan, fund, or program . . . established or
maintained by an employer . . . for the purpose of providing
for its participants or their beneficiaries, through the
purchase of insurance or otherwise” specified benefits,
including “medical, surgical, or hospital care or benefits, or
benefits in the event of sickness [or] disability . . . .” (29
U.S.C. § 1002(1).) Although the existence of an ERISA plan
is ordinarily a question of fact, that question may resolved
as a matter of law on summary judgment when the
pertinent facts are undisputed. (See Hollingshead, supra,
34 Cal.App.4th at pp. 533-539.)
Whether a state law claim relates to an ERISA plan
depends on the extent to which the claim implicates matters
subject to ERISA.2 As explained in Pacific Airmotive Corp.
2

Generally, under ERISA, “[a] law ‘relates to’ an
employee benefit plan, in the normal sense of the phrase, if
it has a connection with or reference to such a plan.” (Shaw
v. Delta Air Lines (1983) 463 U.S. 85, 97.) However, “[s]ome
state actions may affect employee benefit plans in too
tenuous, remote, or peripheral a manner to warrant a
finding that the law ‘relates to’ the plan.” {Id. at p. 100, fn.
21; see New York State Conference of Blue Cross & Blue
(Fn. continued on the next page.)

6

Appendix B. Decision of California Court of Appeal-B282801

33a

v. First Interstate Bank (1986) 178 Cal.App.3d 1130, 11381139, four factors influence whether ERISA preempts a
state law claim: “(1) the extent to which the law in question
relates to an area traditionally within a state’s domain
[citations]; (2) the extent to which the law directly or
indirectly impinges on the terms and conditions of an
employee benefit plan [citations]; (3) the extent to which the
relief sought is incompatible with ERISA [citations]; and (4)
the extent to which the rights the plaintiff seeks to enforce
arise under an employee benefit plan. [Citations.]”
Whether a state law claim relates to an ERISA plan may be
resolved on summary judgment. (Provience v. Valley Clerks
Trust Fund (1984) 163 Cal.App.3d 249, 258-259 (Provience))
Courts have concluded that ERISA preempts a wide
variety of state law claims by employees relating to ERISA
plan benefits, including claims against employers predicated
on the improper denial or processing of plan benefits.
(Simon Levi Co. v. Dun & Bradstreet Pension Services, Inc.
(1997) 55 Cal.App.4th 496, 502 [discussing cases]; Morris B.
Silver M.D., supra, 2 Cal.App.5th at p. 801 [discussing
cases].) In Metropolitan Life Ins. Co. v. Taylor (1987) 481
U.S. 58, 61, an employee was enrolled in his employerprovided ERISA plan, which paid disability benefits. After
Shield Plans v. Travelers Ins. Co. (1995) 514 U.S. 645, 655
[“If ‘relate to’ were taken to extend to the furthest stretch of
its indeterminacy, then . . . preemption would never run its
course”].)

7

Appendix B. Decision of California Court of Appeal-B282801

34a

suffering injuries in a car accident and undergoing a divorce,
the employee took a leave of absence from work and received
benefits under the plan. (Id. at pp. 60-61.) At the
employer’s request, the employee submitted to examinations
by a psychiatrist and physician, who found that he was not
disabled. (Id. at p. 61.) When the employee refused to
return to work, his employer terminated his employment.
(Ibid.) The employee sued his employer and the plan’s
insurer, asserting claims for wrongful termination and
breach of contract, seeking compensatory damages for
“‘money contractually owed . . . , as well as immediate
reimplementation of all benefits and insurance coverages
. ..
(Id. at p. 61.) The United States Supreme Court
concluded that the employee’s common law contract and tort
claims were subject to ERISA preemption. (Id. at p. 62.)
In Drummond v. McDonald Corp. (1985) 167
Cal.App.3d 428, 430, the plaintiff was enrolled in employerprovided health care and long-term disability benefit plans
subject to ERISA. The plaintiff asserted claims against the
employer for breach of the covenant of good faith and fair
dealing, fraud, and intentional infliction of emotional
distress, alleging that after she took a medical leave of
absence, the employer improperly delayed the payment of
disability benefits and refused to “convert” the plaintiffs
group insurance to individual insurance. The appellate
court held that the claims were subject to ERISA
preemption. (Drummond, supra, at pp. 430, 432-434.)

8

Appendix B. Decision of California Court of Appeal-B282801

35a

B. Ouyang’s Demurrer to the Petition
At the outset, we examine Ouyang’s contention that
Achem’s petition must be dismissed due to formal defects.
“A proceeding in mandamus is . . . subject to the general
rules of pleading applicable to civil actions. [Citation.]”
(Chapman v. Superior Court (2005) 130 Cal.App.4th 261,
271 {Chapman).) For that reason, “it is necessary for the
petition to allege specific facts showing entitlement to
relief. ... If such facts are not alleged, the petition is
subject to general demurrer [citation] or the court is justified
in denying the petition out of hand.” (Gong v. City of
Fremont (1967) 250 Cal.App.2d 568, 573.)3
Here, Ouyang’s return demurs to Achem’s petition as
fatally defective, arguing that it “does not consist [of] a
petition setting out the ultimate fact allegations and issues,”
and that “the allegation of reversible error ... is not
supported by the [trial] court’s order.” We disagree.
Although we do not condone Achem’s failure to include
within the petition a separate section in the form of a
pleading, the petition adequately sets forth the factual
allegations and issues. The petition describes the
procedural history of the action, identifies the SAC’s
3

We note that California Rules of Court, rule 8.486 sets forth
other requirements, including that a petition for mandamus
identify the real party in interest, contain a verification, and be
accompanied by a memorandum of points and authorities and
adequate record. Ouyang does not argue that Achem’s petition
fails to satisfy those requirements.

9

Appendix B. Decision of California Court of Appeal-B282801

36a

allegations potentially supporting ERISA preemption of the
claims for fraud and breach of contract, and sets forth the
trial court’s ruling on the motion for summary motion or
adjudication. We further observe that although Ouyang
characterizes the petition as “uncertain,” she has submitted
two briefs (her return and a brief designated a “petition for
rehearing” regarding the alternative writ) that include
argument (with citation to legal authority) in support of the
trial court’s ruling. Accordingly, we overrule the demurrer.
0Chapman, supra, 130 Cal.App.4th at pp. 271-272
[overruling demurrer to petition lacking “a traditional
statement of facts” because petitioner’s other submission
identified the relevant facts and real party in interest
addressed key issue in two briefs].)
C. SAC’s Claims for Fraud and Breach of Contract
In assessing the denial of summary judgment, we
look first to Ouyang’s allegations in the SAC, which frame
the issues pertinent to a motion for summary judgment or
adjudication. (Bostrom v. County of San Bernardino (1995)
35 Cal.App.4th 1654, 1662 [““‘[I]tis [the complaint’s]
allegations to which the motion must respond by
establishing . . . there is no factual basis for relief on any
theory reasonably contemplated by the opponent’s
pleading. [Citation.]””’].)
The SAC alleges the following facts: From January
2011 to November 2013, Ouyang was on an unpaid leave
from her employment with Achem. When Ouyang started

10

Appendix B. Decision of California Court of Appeal-B282801

37a

the unpaid leave, she had Health Maintenance
Organization (HMO) health insurance through Achem’s
group health insurance plan with premiums paid by Achem
at no cost to her. During the unpaid leave, Achem never
notified her that her health insurance coverage had been
discontinued or directed her attention to her option for
coverage pursuant to the Consolidated Omnibus Budget
Reconciliation Act of 1985 (29 U.S.C. §§ 1161 et seq.)
(COBRA). Instead, in September 2011, Achem sent
Ouyang a notice stating that it would provide HMO health
insurance to its California employees at no cost to the
employees. Ouyang submitted a timely enrollment form to
Achem, which sent her an insurance card with an effective
date of October 1, 2011.
In January 2012, Achem, through its human resource
agency ADP [T]otal [S]ource (ADP), again notified Ouyang
that she was eligible to register for coverage through
Achem’s group medical insurance plan at no charge to her.
Upon receiving the notice, Ouyang contacted ADP, which
confirmed that she was an employee of Achem on unpaid
leave and that Achem would pay the premiums for her
HMO health insurance, at no cost to her. ADP provided
Ouyang with instructions how to register for Achem’s
group insurance plan. After complying with the
instructions, Ouyang received an insurance card with an
effective date of February 1, 2012.
In June 2012, when Ouyang sought medical services,
she discovered that Achem had not paid the premiums for

11

Appendix B. Decision of California Court of Appeal-B282801

38a

her health insurance. As a result, she was obliged to
personally pay for the medical services. Ouyang contacted
ADP and inquired regarding coverage under COBRA. ADP
told Ouyang that she was eligible for employer-sponsored
health insurance coverage but ineligible for COBRA
coverage, and advised her to enroll in Achem’s group
health insurance plan when it opened for registration. In
or after June 2013, Ouyang registered in Achem’s group
health insurance plan and received an insurance card.
In November 2013, when Ouyang left her
employment with Achem, she received neither notification
that her insurance terminated nor notice of her COBRA
rights. She contacted ADP, which told her that she was
not eligible for coverage under COBRA. As a result,
Ouyang lost the option to continue her employer-provide
coverage under COBRA. In May 2014, she suffered
injuries in a car accident, and incurred medical expenses
exceeding $3,870 due to lack of health insurance.
Notwithstanding the SAC’s references to ADP,
Ouyang’s claims target Achem, as the SAC alleges that
Achem “was in sole control of the administration and
maintenance of [Ouyang’s] medical insurance benefits.”
The fraud claim relies on allegations that Achem
knowingly made false representations to Ouyang regarding
the payment of her insurance premiums and her
ineligibility for COBRA coverage. According to the SAC,
Achem made no payments for Ouyang’s health insurance
as early as February 2012, falsely stated that it continued

12

Appendix B. Decision of California Court of Appeal-B282801

39a

to make the payments in order to “get a lower premium[]
rate by keeping [Ouyang] out of [Achem’s] group health
plan,” and misrepresented her eligibility for COBRA rights
in order to cover up its “false promises.” The breach of
contract claim alleges that Ouyang, by submitting
enrollment forms to Achem, “entered a written agreement”
under which Achem “would provide medical coverage to
[her] and make premium payments to [her] HMO medical
insurance plan . . . while [she] remained an employee . . .
Both claims sought damages, including economic losses
exceeding $3,870.
D. Achem’s Motion for Summary Judgment or
Adjudication
Achem sought summary adjudication on Ouyang’s
claims on several grounds, including that the claims, as
alleged in the SAC, were subject to ERISA preemption.
Achem’s motion also asserted that each claim failed on the
merits, although it did not identify that purported failure
as a separate ground for summary adjudication.
In an effort to show the claims were meritless, Achem
maintained that in view of the allegations in the SAC, ADP
-- rather than Achem -- was responsible for the
misrepresentations that Ouyang attributed to Achem.
Pointing to the SAC, Achem argued: “[0]nly ADP . . .
made the misrepresentation^] to [Ouyang regarding] her
health insurance eligibility. . . . [Achem] did not make any

13

Appendix B. Decision of California Court of Appeal-B282801

40a

representations to [Ouyang] regarding her health
insurance eligibility.”
Achem also offered evidence challenging certain
allegations underlying the claims. Achem contended that
Ouyang’s unpaid leave was valid for only 12 weeks, and
that she never intended to return to work. In support of
the latter contention, Achem submitted a declaration that
Ouyang filed in connection with another motion, in which
she stated: “I stopped working at Achem . . . since January
2011.” Furthermore, in order to show that no written
agreement required Achem to provide health insurance to
employees who had stopped working, and that Ouyang
knew that Achem paid for her insurance only when she
worked full time or part time, Achem presented an excerpt
from its employee handbook, which states: “While on an
unpaid leave of absence, in most instances, the employee
must make arrangements for direct payment of . . . health
insurance
E. Ouyang’s Opposition
Ouyang opposed summary adjudication on her
claims, asserting that Achem failed to show that her
alleged agreement with Achem regarding her health
benefits while on leave constituted an “employee welfare
benefit plan,” within the meaning of ERISA. Her principal
contention was that the alleged agreement was an
“individual agreement” outside the scope of ERISA,
notwithstanding the SAC’s allegations that she sought a

14

Appendix B. Decision of California Court of Appeal-B282801

41a

benefit offered generally to employees under Achem’s
group health insurance plan, and that she entered into the
agreement by completing enrollment forms for that plan.
In support of that contention, she relied on the excerpt
from Achem’s employee handbook, arguing that it
established a triable issue whether her agreement with
Achem while on unpaid leave was “not part of [Achem’s]
employee welfare benefit plan.” She also pointed to
Achem’s responses to special interrogatories, which stated
(1) that in 2011, Achem did not offer group health
insurance to any employee not working full time and not
on a valid leave, and (2) that from 2012 to 2104, Achem
relied on ADP to make arrangements for terminating
coverage for any such employee. In the alternative,
Ouyang argued that Achem failed to carry its initial
burden on summary judgment of showing that Achem’s
group health insurance plan, as alleged in the SAC,
constituted an ERISA plan.
Ouyang also offered evidence to support certain
allegations in the SAC. Ouyang submitted Achem’s notice
to employees dated September 19, 2011 -- a copy of which
was also attached to the SAC -- which described the terms
of Achem’s group health insurance plan, including the
availability of HMO health insurance coverage at no cost to
employees. Additionally, Ouyang presented copies of
health insurance cards issued to her in and after October
2011, as well as Achem’s answer to the SAC, which

15

Appendix B. Decision of California Court of Appeal-B282801

42a

acknowledged that Achem paid her health insurance
premiums for a period after she began her unpaid leave.
F. Trial Court's Ruling
At the hearing on Achem’s motion, the trial court
characterized Ouyang’s claims as predicated on a promise
namely, “[W]hile you’re on your leave, you’ll have insurance
coverage” -- and remarked, “[I]t might be a jury question as
to whether [that promise] is related to an ERISA claim. But
[Ouyang] doesn’t plead [an] ERISA claim; she claims breach
of an oral promise.”
Following the hearing, the trial court denied Achem’s
motion in its entirety. With respect to both claims, the court
concluded there were triable issues, “including but not
limited” to whether the claims related to an ERISA plan,
whether ADP acted as Achem’s agent in entering into an
agreement with Ouyang to pay for her benefits, and whether
Achem ratified that agreement by making some payments.
The court further stated: “[Ouyang’s] evidence, if credited
by the trier of fact, is sufficient to establish that any
agreement by [Achem] to provide health benefits to
[Ouyang] . . . was outside of [Achem’s] agreement to provide
coverage for her while she was working.”
G. Analysis
We conclude that summary adjudication was
improperly denied on each of Ouyang’s claims. Generally,
when a defendant seeks summary adjudication of a claim on

16

Appendix B. Decision of California Court of Appeal-B282801

43a

the basis of ERISA preemption and additionally, on the
ground that the claim lacks merit, the issue of ERISA
preemption presents a threshold determination properly
resolved prior to the merit-based challenge. (Provience,
supra, 163 Cal.App.3d at pp. 258-259 & fn. 6.) For that
reason, the focus of our inquiry is on the existence of triable
issues relevant to ERISA preemption. As explained below,
there are no such issues.
1. Existence of ERISA Plan
We begin with whether Achem demonstrated the
existence of “an employee welfare benefit plan” within the
meaning of ERISA. In Marshall, our Supreme Court
explained that when an employer, in seeking to provide its
employees with health care benefits, “purchases a group
insurance policy, contributes toward premiums and remits
them to the insurer, and retains authority to terminate the
policy or change its terms,” the employer “has ‘established or
maintained’ an ERISA plan regardless of whether it also
processes claims or otherwise administers the policy.”
{Marshall, supra, 2 Cal.4th at pp. 1054, fn. 3, 1057.)
Applying those criteria, the court concluded that an
employer’s conduct in buying a group health insurance
policy, paying the entire cost of the premiums for its
employees, submitting enrollment forms to a third party
administrator, and changing insurance providers when
necessary “demonstrated beyond peradventure” that the

17

Appendix B. Decision of California Court of Appeal-B282801

44a

employer established an ERISA plan. {Marshall, supra, at
p. 1056.)
Here, the SAC’s factual allegations, coupled with the
evidence submitted by Ouyang, establish that Achem’s
group insurance plan constituted an ERISA plan. As
explained in Foxborough v. VanAtta (1994) 26 Cal.App.4th
217, 222, fn. 3, in seeking summary judgment, “a defendant
may rely on the complaint’s factual allegations, which
constitute judicial admissions. [Citations.] Such admissions
are conclusive concessions of the truth of a matter and
effectively remove it from the issues.” Furthermore, we may
review all the evidence submitted by the parties to
determine whether Achem carried its initial burden of
showing the existence of an ERISA plan. (Villa v. McFerren
(1995) 35 Cal.App.4th 733, 750-751.)
The SAC expressly alleges that Achem purchased
group health insurance through which it provided employees
with HMO health insurance at no cost to the employees.
Furthermore, attached to the SAC was a copy of Achem’s
September 19, 2011 notice to employees, which Ouyang also
submitted with her opposition to Achem’s motion. As the
notice states that Achem had changed its health insurance
provider and that employees would receive a new enrollment
packet, the notice establishes Achem’s authority over the
group health insurance plan.
We further observe that although Achem’s motion
suggested that ADP - rather than Achem - was responsible
for the misconduct Ouyang attributed to Achem, the record

18

Appendix B. Decision of California Court of Appeal-B282801

45a

demonstrates no triable issue whether Achem exercised
sufficient control over the plan to foreclose its status as an
ERISA plan. A plan may fall within the scope of ERISA
even though the employer relies on a third party
administrator. (Marshall, supra, 2 Cal.4th at p. 1057.)
Here, the evidence submitted in connection with the motion
shows that from 2012 to 2014, Achem employed ADP to
manage its plan, and relied on ADP to make proper
arrangements to terminate an employee’s enrollment in the
plan. As explained in Marshall, such delegation of
administration tasks “is a common feature” of ERISA plans.
(Marshall, at p. 1057.) In sum, there are no triable issues
whether Achem established an ERISA plan.
2. Claims Relate to the ERISA Plan
We turn to whether Achem demonstrated that the
SAC’s claims for fraud and breach of contract relate to
Achem’s ERISA plan. Those claims are predicated on
allegations that after Ouyang began her unpaid leave,
Achem -- acting through ADP -- repeatedly told her that she
continued to be eligible for HMO health insurance at no cost
to her through Achem’s group insurance plan, that she
applied for the insurance as instructed, that at some point
Achem stopped paying for her insurance, and that Achem
did not provide timely notification of her COBRA rights,
thus resulting in her failure to exercise those rights. Each
claim seeks an award of damages, including $3,870 in

19

Appendix B. Decision of California Court of Appeal-B282801

46a

medical expenses she allegedly incurred for want of health
insurance.
In view of these allegations, the claims are subject to
ERISA preemption. Each claim alleges the existence of a
right that -- according to the SAC -- was offered generally to
Achem’s employees, namely, the provision of HMO health
insurance at no cost to an employee. Because that right
implicated the economic value of the health insurance
benefits offered under Achem’s ERISA plan, it was a benefit
of that plan. (Magliulo v. Metropolitan Line Ins. Co.
(S.D.N.Y. 2002) 208 F.R.D. 55, 58 [right to health insurance
at reduced price was benefit of ERISA plan]; see Heffner v.
Blue Cross and Blue Shield of Alabama, Inc. (11th Cir. 2006)
443 F.3d 1330, 1338 [deductible-free insurance coverage was
benefit of ERISA plan].) The fraud claim also alleges a
failure to provide notification of COBRA rights, which
renders the claim subject to ERISA preemption. (Tingey v.
Pixley-Richards West, Inc. (9th Cir. 1992) 953 F.2d 1124,
1132-1133 [ERISA preempted state law claims alleging
improper loss of COBRA rights].)
Before the trial court and in this writ proceeding,
Ouyang has contended there are triable issues whether her
claims relate exclusively to a promise or contract Achem
made with respect to Ouyang as an individual, not to
Achem’s ERISA plan. In support of this contention, she
points to the excerpt from Achem’s employee manual,
which states that “in most instances,” an employee on
unpaid leave must pay directly for health insurance.

20

Appendix B. Decision of California Court of Appeal-B282801

47a

Ouyang argues that the manual raises a triable issue
whether her claims relate solely to “an individual benefit”
outside the scope of ERISA.
Ouyang’s contention fails, as it relies on a new theory
of liability not pleaded in the SAC that is inconsistent with
the SAC’s allegations. “Under settled summary judgment
standards, we are limited to assessing those theories alleged
in the [SAC]. [Citations.] “‘The burden of a defendant
moving for summary judgment only requires that he or she
negate plaintiff s theories of liability as alleged in the
complaint. A ‘moving party need not “. . . refute liability on
some theoretical possibility not included in the pleadings.”
[Citation.]’ . . . “‘[A] motion for summary judgment must be
directed to the issues raised by the pleadings. The [papers]
filed in response to a defendant’s motion for summary
judgment may not create issues outside the pleadings and
are not a substitute for an amendment to the pleadings.
[Citation.]” (Falcon v. Long Beach Genetics, Inc. (2014) 224
Cal.App.4th 1263, 1275.) Thus, a plaintiff may not defeat a
summary judgment motion by “presenting] a ‘moving
target’ unbounded by the pleadings.” (Melican v. Regents of
University of California (2007) 151 Cal.App.4th 168, 176.)
Nothing in the SAC reasonably suggests that Achem
agreed to pay for Ouyang’s HMO health insurance pursuant
to an individual contract separate from Achem’s ERISA
plan. The SAC alleges that after Ouyang began her unpaid
leave, Achem notified her that she was eligible for a health
insurance benefit — namely, no-cost HMO insurance -

21

Appendix B. Decision of California Court of Appeal-B282801

48a

generally available to Achem’s employees, and that in
accordance with instructions from Achem and ADP, she
repeatedly registered for coverage through Achem’s group
health insurance plan. Although the SAC refers to Achem’s
“false promises” to pay for her health insurance, that
phrase, viewed in context, designates a benefit of Achem’s
ERISA plan -- namely, the no-cost HMO insurance generally
available to employees - that Achem allegedly assured
Ouyang she was eligible to receive. The SAC thus alleges
only that Achem’s alleged misconduct denied Ouyang a
benefit of Achem’s ERISA plan.
Achem’s alleged false assurances that Ouyang was
eligible for an ERISA plan benefit do not foreclose ERISA
preemption of the SAC’s claims. In Wise v. Verizon
Communications, Inc. (9th Cir. 2010) 600 F.3d 1180, 1183,
the plaintiff worked for a period for an employer, during
which she was diagnosed with multiple sclerosis, and then
left. (Ibid.) The employer, in order to lure the plaintiff to
return to work, promised that her benefits coverage under
its ERISA plan would ‘“bridge”’ back to her initial period of
employment, and that her multiple sclerosis would not be
subject to coverage limitations as a pre-existing condition.
(Wise, supra, at p. 1183.) In making those promises, the
employer’s recruitment team understood the bridging of
benefits to be a “standard practice.” (Ibid.) Later, after the
plaintiff returned to work for the employer, the
administrator of the employer’s ERISA plan ruled that the
multiple sclerosis was a pre-existing condition that limited

22

Appendix B. Decision of California Court of Appeal-B282801

49a

the plaintiffs benefits coverage, and she asserted a state law
claim against her employer, alleging fraud, misrepre­
sentation, and negligence. (Wise, supra, at p. 1184.) The
Ninth Circuit held that ERISA preempted the claim, stating
that “[t]he state law theories of fraud, misrepresentation,
and negligence all depend on the existence of an ERISAcovered plan to demonstrate that [she] suffered damages:
the loss of insurance benefits.” (Id. at p. 1191.) That
rationale also applies to the SAC’s state law claims.
The three decisions upon which Ouyang relies are
distinguishable, as each involved a promise or contract
under which an employer agreed to provide benefits to an
individual employee. In Miller v. Rite Aid Corp. (9th Cir.
2007) 504 F.3d 1102, 1104-1105, relatives of a deceased
employee asserted claims for breach of employment contract
and negligence, alleging the employer offered the decedent
life insurance as an element of the decedent’s employment
contract, and repeatedly told the decedent and her relatives
that such insurance existed, but failed to ensure that the
decedent had an effective life insurance policy when she
died. In holding that the plaintiffs’ claims were not subject
to ERISA preemption, the Ninth Circuit concluded that the
employer’s promise to provide life insurance, by itself, did
not constitute an ERISA plan. (Miller, supra, at p. 1108.)
As explained above, the claims in the SAC rely on an ERISA
plan benefit, rather than any such promise.
The remaining two decisions involve contracts between
an employer and an individual employee. In Dakota,

23

Appendix B. Decision of California Court of Appeal-B282801

50a

Minnesota & Eastern Railroad Corp. v. Schieffer (8th Cir.
2011) 648 F.3d 935, 936 (.Dakota, Minnesota & Eastern), a
railroad entered into a contract with its president in order to
encourage his ongoing employment. The contract entitled
the president to “lucrative” benefits should he be terminated
without cause. {Id. at p. 936.) Later, after being so
terminated, the president requested contract-based
arbitration to determine his benefits, and the railroad
successfully sought an injunction to bar the arbitration on
the ground that it was subject to ERISA preemption.
{Dakota, Minnesota & Eastern, supra, at p. 936.) Reversing,
the Eighth Circuit concluded that the president’s contract
was not an ‘“employee welfare benefit plan’” within the
meaning of ERISA because it provided benefits only for a
single individual. {Dakota, Minnesota & Eastern, supra, at
p. 938.)
In Graham v. Balcor Co. (9th Cir. 1998) 146 F.3d 1052,
1053-1054, an employee received an unfavorable perfor­
mance review and faced termination of her employment.
After contesting the review and threatening litigation if
terminated, the employee entered into an agreement with
her employer. {Ibid.) Under the agreement, the employee
promised to forego her legal claims in exchange for
continued health care benefits through the employer’s plan.
{Ibid.) Later, after the employee took a medical leave of
absence, the employer discontinued her health insurance
coverage, and she asserted state law claims against the
employer based on that conduct. {Ibid.) The trial court

24

Appendix B. Decision of California Court of Appeal-B282801

51a

ruled that the claims were subject to ERISA preemption.
The Ninth Circuit rejected that determination, concluding
that the claims arose from the employee’s agreement as a
individual with her employer, which did not constitute an
ERISA plan. (Graham, supra, at p. 1055.) In contrast to
Dakota, Minnesota & Eastern and Graham, the claims
pertinent here, as pleaded in the SAC, are dependent upon a
plan generally available to Achem’s employees. In sum,
summary judgment was improperly denied on the SAC.
Ill
III
III

25

Appendix B. Decision of California Court of Appeal-B282801

52a

DISPOSITION
Let a peremptory writ of mandate issue directing that
respondent trial court vacate its order denying petitioner’s
motion for summary judgment and enter a new order
granting summary judgment on the SAC. The alternative
writ, having served its purpose, is discharged, and the
temporary stay is vacated effective upon the issuance of
remittitur. Petitioner is awarded its costs.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS

MANELLA, J.
We concur:

EPSTEIN, P. J.

COLLINS, J.

26

Appendix B. Decision of California Court of Appeal-B282801

53a
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
COURT OF APPEAL - SECOND DIST.

FILED

LIN OUYANG,
Plaintiff and Appellant,

Dec 29, 2020

v.

ACHEM INDUSTRY AMERICA, INC.,
Defendant and Respondent.

DANIEL P. POTTER, Clerk

S. Veverka

Deputy Clerk

B290915
Los Angeles County Super. Ct. No. BC556293

THE COURT:*
Appellant's petition for rehearing is denied.

MANELLA, P.J.

COLLINS, J.

CURREY/qf

Appendix C. Order of California Court of Appeal denying Petition for Rehearing

54a

SUPREME COURT

FEB 2 4 2021

Court of Appeal, Second Appellate District, Division Four - No. B290915
Jorge Navarrete Clerk
S266270
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
LIN OUYANG, Plaintiff and Appellant,
v.
ACITEM INDUSTRY AMERICA, INC., Defendant and Respondent.

The petition for review is denied.
The request for an order directing publication of the opinion is denied.

CANTIL-SAKAUYE
ChiefJustice

Appendix D. Order of California Supreme Court denying Petition for Review

55a

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
r-v

date:

05/15/17

DEPT, 15

HONORABLE RICHARD FRUIN

JUDGE

HONORABLE

JUDGE PRO TEM

MB
H. AVALOS, C.A.

r-

VS

ACHEM INDUSTRY AMERICA INC

ELECTRONIC RECORDING MONITOR

Defendant
Counsel

Reporter

LIN OUYANG (X)

IN PROPRIA PERSONA'
CATHERINE SUN (XJ

R/W BC468795

r
r
r
r
r

NATURE OF PROCEEDINGS:

1) DEFENDANT ACHEM INDUSTRY AMERICA'S MOTION FOR
SUMMARY JUDGEMENT OR SUMMARY ADJUDICATION-

r
r
r

3) DEFENDANT'S MOTION TO CONTINUE TRIAL.

r

” roR

Matter is called for hearing.

P

r
r
r
r
r
r
r

T

DEPUTY CLERK

J. AMAYA
PRO TEMPORE, CSR# 13099
Plaintiff
Counsel

LIN OUYANG

r•

T
T
T
T
T
T

Deputy Sheriff

8:31.am BC556293

r

E. GARCIA

The Court having read and considered the movinq and
opposing papers, and having issued a tentative rulinq,
now hears arguments from both sides,
3
nm„e,L!r9Ijmenl:s' the Court ADOPTS the said rulinq

ruling that is filed and incorporated herein by said
denied1106' Motlon number 2 is GRANTED, sanction are
Notice by Defense Counsel,
<D

Page
"vl

1 of

1

DEPT. 15

MINUTES ENTERED
05/15/17
COUNTY CLERK

to

o

T

1
1

Appendix E. Order denying motion for summary adjudiction-BC5^J2^2

TTTT

56a

iS

i : irk

sUpe/fOr£$L60

T

r
■r
r
r
r
f
r ;

#a

80:30 a.m,. Monday. Mav 15. 2017

fihejif
ftl

s

'her.

LIN OUYANC v. ACHEM INDUSTRY AMERICA, INC., et al, [#BC 556293]

;

p

Ts^airag'RULiNC

may i $ 2qij
nya

A. MOTION OF DEFENDANT ACHEM INDUSTRY AMERICA, INC FOR Summary
Judgment/ Summary Adjudication

l~~'* 0»pWy:

!

CONTINUED TIMELINE:
6/11/15: Plaintiff filed her verified 2AC, asserting 6 causes of action v. MP:
1. fraud - intentional mlsrep/false promise
2. national origin discrimination, hostile work environment - harassment and
'retaliation (FEHA)
3. wrongful constructive termination in violation of public policy
4. violation of statutory duty - br/Labor Code 2926, 2927, 223, 201, 202
5. fraud
6. br/K
10/21/16: Defendant's motion for JOP was granted as to causes of action 1*4 and
denied as to cause of action S
1/4/17: Plaintiff's demurrers to the 3** Amended Answer, and m/strike, were
overruled/denied
2/10/17: MP/Defendant filed this motion for S3 or, in the alternative, SA1 re 6 "issues":
1, Defendant's health insurance constitutes an Employee Welfare Benefit Plan governed
by ERISA
2, Plaintiff Ouyang's Fifth Cause of Action for Fraud Is related to an employee Welfare
Benefit Plan governed by ERISA
3. Plaintiffs Sixth Cause of Action for Breach of Contract is related to an employee Welfare
Benefit Plan governed by ERISA
4, Plaintiffs Fifth Cause of Action Is preempted by ERISA
5. Plaintiffs Sixth Cause of Action is preempted by ERISA
6. Plaintiffs Causes of Action are outside the statute of limitations

!

p

r

p
p
p

r
r

r

p

r
r
r
r

THE MOTION OF DEFENDANT ACHEM INDUSTRY AMERICA, INC, FOR SUMMARY JUDGMENT
IS DENIED. Triable issues of material fact exist, including but not limited to: a) whether
Plaintiffs 5“ and 6* causes of action “relate to” an ERISA plan; b) whether the
misrepresentations allegedly made to Plaintiff were made by ADP as an authorized agent
of defendant ACHEM; and c) whether Plaintiffs claims are barred by the applicable
statutes of limitation. See discussion below,

p
p
p

■

n

■

n

<2‘
VI
t-*
<TJ
NJ

•to

RE THE ALTERNATIVE MOTION FOR SUMMARY ADJUDICATION, THE COURT RULES AS
FOLLOWS:
1. Defendant’s health insurance constitutes an Employee Welfare Benefit Plan governed
by ERISA: DENIED. This Isn't a proper issue for summary adjudication, as it doesn't
completely dispose of any cause of action, affirmative defense, claim for damage or
issue of duty in this case,
2. Plaintiff Ouyang's Fifth Cause of Action for Fraud is related to an employee Welfare
Benefit Plan governed by ERISA: DENIED. See above re "issue" #1,
3. Plaintiffs Sixth Cause of Action for Breach of Contract Is related to an employee Welfare
Benefit Plan governed by ERISA: DENIED, See above re "issue" #1.
4. Plaintiffs Fifth Cause of Action is preempted by ERISA: DENIED. Triable issues of
I

•i'll

'"N

Appendix E. Order denying motion for summary adjudiction-BC556§2S3

1

t

r.
V.
rr
r
r
r
r
r
r
p
r
r
r
r
r
p
r
r
r
r
r
r
r
r
r
p
p

r
r
r

p

r

p
p
p
p

r
r
r
r

p

P

.

57a

material fact exist, including but not limited to whether Plaintiff's claim "relates to" an
ERISA plan; whether, in making the alleged misrepresentations at issue, AOP acted as an
agent of ACHEM; and/or whether ACHEM ratified the alleged agreement by making
payments. See, e.g., the evidence proffered by Plaintiff in opposition to defendant's facts
12, 20, 25, 26, 27, 29 and 31. Plaintiff's evidence, if credited by the trier of fact, is
sufficient to establish that any agreement by defendant to provide health benefits to
Plaintiff when she was on unpaid leave was outside of the employer's agreement to provide
coverage for her while she was working.
5. Plaintiffs Sixth Cause of Action is preempted by ERISA: DENIED. Triable issues Of
material fact exist, including but not limited to whether Plaintiff's claim "relates to" an
ERISA plan; whether, in entering into the alleged agreement at issue, ADP acted as an
agent of ACHEM; and/or whether ACHEM ratified such agreement by making payments.
See, e.g., the evidence proffered by Plaintiff in opposition to defendant's facts 12, 20, 33,
34, 36, 37 and 39-42. Plaintiff's evidence, if credited by the trier of fact, is sufficient to
establish that any agreement by defendant to provide health benefits to Plaintiff when she
was on unpaid leave was outside of the employer's agreement to provide coverage for her
while she was working.
6. Plaintiffs Causes of Action are outside the statute of limitations: DENIED. Triable issues
of material fact exist, including but not limited to when Plaintiff's 5th and 6th causes of
action accrued. In fact, as movant submits no evidence as to when this lawsuit was filed,
and doesn't request judicial notice of that fact, the burden doesn't shift.
B. RULING ON DEFENDANT'S MOTION TO COMPEL FURTHER RESPONSES TO FORM
INTERROGATORIES NOS. 12.2, 12.3 AND 50.1:
The Motion is GRANTED as to form Interrogatories Nos. 12.2 and 12.3 and DENIED as to
Form Interrogatory No. 50.1. Whether plaintiff has interviewed witnesses or obtained
statements from witnesses is not subject to the work product privilege. If defendant
sought the production of any such documents the privilege could be raised. As to 50.1,
plaintiff has sufficiently answered. The court declines to impose monetary sanctions.
C. RULING ON DEFENDANT'S MOTION TO CONTINUE THE TRIAL:
DENIED. MP does not show good cause to continue the trial.
D. PLAINTIFF'S "RESPECTFUL REMINDER OF PENDING APPLICATIONS TO USE A
SETTELED STATEMENT":
The court has previously ruled, in written rulings served on the parties, that settled
statements are used to evidentiary hearings. Plaintiffs seeks the preparation of settled
statements for law and motion hearings. Settled statements are not required for such
hearings, as the arguments are framed in the motion papers and decided in the minute
order.

2

Appendix E. Order denying motion for summary adjudiction-BC55®2)§4

58a

2
3
4

5
6

Ray Hsu, Esq., SBN: 276412
Law Offices of Ray Hsu
s- Garfield Ave., Suite 338
Alhambra, CA 91801
Telephone: 626-600-1086
Facsimile: 877-771 -3407
Email: labor@rayhsuIawxom

-uHrOrtWtUCOPv
%
%

1

'O
%

Attorney for Defendant
ACHEM INDUSTRY AMERICA INC.

u JIB

JUN 19 2018
Otticerlderk
rri R. Carter, executive
By Karen Tapper, Deputy

7
SUPERIOR COURT OF THE STATE OF CALIFORNIA

8

FOR THE COUNTY OF LOS ANGELES

9

UNLIMITED CIVIL JURISDICTION
10

12
13

LIN OUYANG, an individual,

Case No. BC556293
[Judge: Hon. Richard L. Frum, Jr. ]

Plaintiff,

14
pqtePOSEB] JUDGMENT

15

vs.

Dept: 15

16
17
18
19

ACHEM INDUSTRY AMERICA, INC a
California Corporation: DOES 1-50, inclusive;
Defendant.

20
21
22

On May 15, 203 7, this matter came regularly before the Honorable Richard Fuin for
Summary Judgment Motion. The motion hearing was held in Departm
ent 15 of the Los Angeles I

23
24

Superior Court, Stanley Mosk Courthouse, located at 111 N.

Hill Street, CA 90012. Defendant

25

^as represented by Attorney Ray Hsu of the Law Offices of Ray Hsu; Plaintiff Lin Ouyang

26

represented herself in pro per.

27
28

1
JUDGMENT

Appendix F. Judgment-BC556293

f

59a
On October 21, 2016, the Court granted Defendant’s Motion for Judgment on the
2

Pleadings for the First Second, Third, and Fourth Causes of Action of the Verified Second
Amended Complaint of Plaintiff without leave to amend.

4

On December 1,2017, after the Remittitur was issued by the California Court of Appeal,

5
6

Second Appellate District Division Four, through the writ of mandate proceeding, this Court

7

was directed to grant the May 15, 2017 summary judgment motion of Defendant for the.

8

9

remaining fifth and the sixth causes of action of the Verified Second Amended Complaint of
Plaintiff.

10
The Court ordered and entered Judgment as follows:

11
12

1. Judgment is entered in favor of Defendant, Achem Industry America, Inc. for the

13

Verified Second Amended Complaint of Plaintiff, and Plaintiff takes nothing.

14

2. Defendant is awarded costs on writ of mandate appeal proceeding in the amount of

15

$945.00

16

3. Defendant is awarded costs of suits for the trial court proceedings.

17

18
19
20
21
22
23

Dated:

3ci*tg

^

24
25

JUDGE

26

’rTkemI___
THE SUPERIOR COURT

27
28

2
JUDGMENT

Appendix F. Judgment-BC556293

